IMPLEMENTATION REVIEW OF AWARD FOR STREAMLINED
      TECHNOLOGY ACQUISITION RESOURCES
     FOR SERVICES (STARS) GOVERNMENT-WIDE
          ACQUISITION CONTRACT (GWAC)
        REPORT NUMBER A050213/Q/6/P07001
            DATED DECEMBER 27, 2006
           ASSIGNMENT NUMBER A090024

                 March 31, 2009
Date       :   March 31, 2009

Reply to
Attn of    :   Acquisition Programs Audit Office (JA-A)

Subject    :   Implementation Review of Award for Streamlined Technology Acquisition Resources for
               Services (STARS) Government-Wide Acquisition Contract (GWAC)
               Report Number A050213/Q/6/P07001 dated December 27, 2006
               Assignment Number A090024

To         :   James A. Williams
               Commissioner, Federal Acquisition Service (Q)

           The Acquisition Programs Audit Office conducted an implementation review of management’s
           actions taken in response to the five recommendations included in the subject audit report. The
           audit report presented the results of a review of controls in place to ensure that the Small
           Business Governmentwide Acquisition Center’s (Center’s) administration of the 8(a)
           Streamlined Technology Acquisition Resources for Services (8(a) STARS) contracts was
           adequate in providing reasonable assurance that these contracts were being used properly. A
           formal action plan provided by the Federal Acquisition Service (FAS) on February 22, 2007
           addressed the recommendations and identified specific steps to be completed with the
           assistance of the Center to improve the controls and oversight of the 8(a) STARS program.
           Attachment A contains a copy of the management action plan your office provided.

           Background

           The 8(a) STARS Governmentwide Acquisition Contract (GWAC) is a small business set-aside
           contract for technology solutions offered by the General Services Administration’s (GSA’s) FAS.
           It enables customer agencies to fulfill their information technology (IT) services and services-
           based solutions requirements and at the same time receive credit toward socioeconomic goals
           through utilizing small businesses that are 8(a) certified. In turn, the program encourages small
           businesses to develop and strives to provide them an opportunity to become “best in class”
           technology providers. On behalf of customer agencies, delegated ordering contracting officers
           (OCOs) can procure a variety of IT services and associated products from 8(a) STARS vendors,
           as the 8(a) STARS contract covers eight functional areas designated by the North American
           Industry Classification System.

           Objective, Scope, and Methodology

           The objective of this implementation review was to determine whether appropriate corrective
           action as stated in the proposed action plan issued in response to the Review of Award for
           Streamlined Technology Acquisition Resources for Services (STARS) Government-Wide
           Acquisition Contract (GWAC), Report Number A050213/Q/6/P07001 dated December 27, 2006
           (original report) had been taken.




                                                          1
A portion of our testing was based on a judgmental sample of ten task orders selected on
October 17, 2008. The sample task orders were the ten largest dollar task orders, which were
all greater than $4,000,000; and represented 15% of the total value of all task order awards and
modifications under the 8(a) STARS contract for the period May 1, 2007 through October 17,
2008. We chose this time period because the action plan listed April 2007 as the final date to
have completed all corrective actions.

To accomplish the objective of our review, we:
• Reviewed the Review of Award for Streamlined Technology Acquisition Resources for
   Services (STARS) Government-Wide Acquisition Contract (GWAC), Report Number
   A050213/Q/6/P07001 dated December 27, 2006 and all supporting audit evidence.
• Reviewed the action plan and related documentation dated February 22, 2007 in response
   to the original report, as well as additional evidence submitted by Center officials to support
   that action plan.
• Reviewed a judgmental sample of ten task orders on a limited basis to ensure corrective
   actions were effective.
• Performed testing on two additional task orders to ensure that they were awarded within the
   scope of the contract and appropriate functional area.
• Held discussions with program officials, including Center management and program
   personnel.
• Reviewed applicable subparts of the Federal Acquisition Regulation.
• Reviewed the 8(a) STARS contract, website, and ordering guidelines.

We conducted this review during October 2008 through February 2009 in accordance with the
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.


                                     RESULTS OF REVIEW

The results of our implementation review indicate that the Center has taken appropriate
corrective action as stated in the action plan issued in response to the original report, Review of
Award for Streamlined Technology Acquisition Resources for Services (STARS) Government-
Wide Acquisition Contract (GWAC), Report Number A050213/Q/6/P07001. All of the actions
taken by the Center in response to the recommendations from the original report mitigate risk
and enhance the integrity of the 8(a) STARS program. While the Center has implemented
management controls to satisfy the objective of this review, we noted areas for improvement
that could be implemented to further strengthen the controls already in place.

Recommendation #1 – We recommend that the Center modify the STARS contract to
clearly explain the conditions under which users can deviate from the other direct cost
(ODC) limitations set forth in the STARS contract.

In the original report, the audit team concluded that the Center’s controls to monitor ODCs were
thought to be reasonable, but could be strengthened in order to provide greater assurance that
task order costs were predominately for services. In the action plan, the Center stated that it
had already modified the contract and planned to amend the ordering guide to clarify the
language pertaining to ODCs. As part of this review, the Center provided us with the clarifying
modification and supporting documentation demonstrating that this was completed and



                                                2
disseminated to all vendors in a timely manner. In addition, we reviewed the ordering guide and
verified that the language explaining the use of ODCs had been clarified.

To verify that the Center’s remediation actions had deterred any abuses in this area, we
selected a sample of ten task orders and examined them for ODC limitation violations. For the
task orders in which ODCs were identifiable, we did not find evidence of abuse. Further, we
determined that compared to the total task order values, the dollar amounts of ODCs were
minimal; reducing the risk of abuse in this area.

Recommendation #2 – We recommend that the Center take corrective action to address
the out of scope task orders identified in our review.

In the original report, the audit team found that the Center’s controls to prevent and detect task
orders that had been awarded outside of the scope of the contract or competed under an
inappropriate functional area did not appear to be adequate. In the sample of task orders the
audit team reviewed, they identified two task orders that appeared to be outside of the scope of
the 8(a) STARS contract and the selected functional area. The Center had not previously
determined that these task orders had potential scope violations. Failure to strengthen the
controls in this area could have caused potential misuse of the contract and ultimately,
jeopardize the program.

In the action plan, the Center addressed the two task orders separately. It noted that one of the
task orders had already expired and was no longer on the 8(a) STARS contract. The planned
remediation for the other task order was to not exercise the next option period and transition
that order to another contracting vehicle. The Center provided us with the modifications and
supporting documentation that these measures had been taken.

As part of this implementation review, we selected a sample of ten task orders and examined
them for instances in which awards had been made outside the scope of the contract or the
functional area. We did not identify any scope violations. In addition to this testing, to ensure
that the customer agencies and vendors identified with scope issues in the original report had
not returned to the 8(a) STARS program with an order for similar work, we pulled a judgmental
sample of two task orders, one task order for each customer agency and vendor pairing for the
period May 1, 2007 through October 17, 2008. We found that for one of the sample task orders,
the scope was appropriate for the 8(a) STARS contract and the functional area; and there were
no similarities found. The other task order had been identified by Center personnel as one that
was neither awarded properly within the parameters of the contract, nor was it awarded by a
delegated OCO. After identifying these issues, the Center cancelled the task order. We
commend them for their improved attention to detail and communication in order to mitigate this
improper contracting action.

Recommendation #3 – Focus task order reviews on the highest risk orders (task orders
greater than $3 million); task orders for the largest vendors and largest clients; and task
orders with new stakeholders.

Recommendation #4 – Develop a standardized statement of work (SOW) review process to
maintain consistency in scope review.

As mentioned previously, the original report stated that the Center’s controls to prevent and
detect out of scope task orders did not appear to be adequate to ensure that improper use of



                                                3
the 8(a) STARS contract was not occurring; therefore, placing the integrity of the program at
risk. In the action plan, the Center cited the Office of Management and Budget (OMB)

designation which requires a quality assurance plan to include a measure to review between
95% and 99% of task orders over $100,000 within 60 days of notice of issuance of the order. In
addition, the Center stated that it had created a systematic SOW review process prior to
issuance of orders to allow better control over task order management for high risk and high
dollar orders.

As part of the implementation review, we reviewed GSA’s quality assurance plan, as required by
OMB and the Center’s pre- and post-award SOW review processes. The Center has developed
a standardized SOW review process in order to maintain consistency in scope reviews which
allows for better control over task order management. The Center requires a post-award SOW
review on all task orders, which satisfies the review requirements as stated in the quality
assurance plan; and, also offers an optional pre-award SOW review. We recognize the pre-
award SOW reviews as an additional value-added feature provided by the Center which assists
in mitigating the risk of awarding a task order outside of the scope of the contract or designated
functional area.

When performing a post-award SOW review, the Center developed a post-award SOW review
form, which requires the documentation of basic information pertaining to the task order. In
order to ensure that the Center had fully implemented this control on all task orders awarded
under the contract as stated, we reviewed the post-award SOW review form for seven of the
ten 1 task orders in our sample selection. While we acknowledge that these forms serve as a
management control, we noted form improvements that could be implemented to further
strengthen the processes already in place. These suggested improvements are outlined below.

Identification of Reviewer. We suggest that the Center add a method to identify who completed
the post-award SOW review form. This is an accountability measure that could improve the
review process if there are any follow-up questions regarding the forms or any outstanding
issues that need to be addressed.

Completeness of the Form. During our analysis of the post-award SOW review forms for our
selected task order sample, we noted that the forms were not fully completed. While the
absence of this information did not indicate any abuses within the parameters of our review,
filling out the forms in their entirety would provide a more complete picture of the task order and
the SOW review performed.

Follow-up of Comments/Recommendations. Some of the post-award SOW review forms we
examined included additional comments noting the reviewer’s questions or concerns. However,
the resolution of these items was not always noted on the forms. We suggest that the Center
ensure that all questions or concerns documented on the post-award SOW review form are not
only addressed, but that the resolution is also detailed on the form. This allows for ease of
reference for all users of the task order file.

Recommendation #5 – Develop standardized procedure for timely review and follow-up of
subcontracting reports.



1
 The post-award SOW review forms for three task orders in our sample selection were not available for review
because at the time of task order awards, the Center did not require the completion of these forms.


                                                       4
In the original report, the audit team found that the Center’s controls to prevent and detect
disproportionate subcontracting did not appear to be adequate. The audit team identified
multiple task orders that had a probability of violating subcontracting procurement regulations.
Highly disproportionate subcontracting levels jeopardize a vendor’s ability to develop its own
staff and expertise and also negatively affect the 8(a) STARS program, in that it is designed to
support small and disadvantaged businesses.

In the action plan, the Center acknowledged its intent to develop a standardized procedure for
timely review and follow-up of subcontracting reports. As part of this implementation review, the
Center provided us with documentation to illustrate its subcontracting report and review
procedures. In addition, we reviewed documentation to support instances in which the Center
took action when they recognized the potential for a subcontracting violation.

To ensure that the Center is monitoring 8(a) STARS vendors’ subcontracting levels, we selected
a sample of ten task orders and reviewed the vendors’ corresponding subcontracting reports.
Of the subcontracting reports we reviewed 1 , we determined that they were all currently in
compliance with procurement regulations; thus, preserving the integrity of the 8(a) STARS
program.


                                                 CONCLUSION

As a result of our analyses and testing, we determined that the Center has taken appropriate
corrective actions as stated in the action plan issued in response to the original report.
However, we noted areas for improvement related to the Center’s post-award SOW review
form. Overall, we found that the Center has made significant positive changes to the controls of
the 8(a) STARS program since the original report and we commend the Center’s efforts to
manage the risks of this program.


                                           INTERNAL CONTROLS

The scope of this review was limited to assess whether appropriate corrective action as stated
in the action plan dated February 22, 2007 was taken by management. Thus, our assessment
and evaluation of internal controls was limited to the issues identified in the original report and
were discussed in the Results of Review section.

If you have any questions regarding this review, please contact Dorinda Burton, Laurel Caes, or
me at (816) 926-7052.




1
  The subcontracting reports for two task orders in our sample selection were not available for review because the
task orders had not been in effect for an entire 6-month subcontracting reporting period.
APPENDIX
 




    A-1
                                                 A[TION ·PLAN

Designated Responding Official: Mary' Parks, SBGWAC Center
Contact Person: Matthew Verhulst, Contracts Di,rision, SBGWAC Center
Telephone Number: 816-926-1366
Date: February 13, 2007


                                            Recommendation                Proposed
Report Number/Title                              Number                   Completion Date
IA 10 15 10 /211 13 IQ 161P /0 17 10 1011         10 11 I                   1014131010171

Recommendation

1. We recommend that the Center modify the STARS contract to clearly explain the conditions under .
which users can deviate from the ODe limitations set forth in the STARS contract

Action to be Taken Step by              Supporting Documentation to   Documentation will be Sent
Step                                    be sent To BECA               Last Day of

1. Contract was modified to             Modification attaclled        Completed and attached with
clarify that ODC's did not apply                                      Action plan
to fixed priced orders.

2. Ordering guide is being              Will be submitted when        April 2007
   modified to contain                  complete.
   clarifying language on the
   use ofODC's.




                                                            A-2
         ~MEI'.\~MENT OF SOLICITATION/MODIFICATION OF CONTRACT                                                                 1 1 . CONTRACT 10 CODE                       I PA~E OF;AGES

  2. AMENDMENT/MODIFICATION NO.3. EFFECTIVE DATE                                                  4, REQUISITION/PURCHASE REQ. NO.5. PROJECT NO. (If applicable)
              PS OOX                                    See 16C
  6. ISSUED BY                                                                                    7" ADMINISTERED BY (If other than Item 6)

  GSAlFSS/SBGWAC Center (6FGC)                                                                                 same as block 6
  1500 E. Bannister Road
  Kansas City, MO 64131

 8. NAME AND ADDRESS OF CONTRACTOR (No., street, county, State and ZIP Code)                                             {"l      9A. AMENDMENT OF SOLICITATION NO.

  Company Name
 Company Address                                                                                                                  9B. DATED (SEE ITEM 11):

 Company City, State Zip                                                                                                          10A. MODIFICATION OF CONTRACT/ORDER 1\10.
                                                                                                                                  C'.J      .....
 CODE                                                   I   FACILITY CODE                                                         10B. DATED (SEE ITEM 13)
                                                                                                                                               ~        -     Award Date
                                                  11. THIS ITEM ONLY APPLIES TO AMENDMENTS OF SOLICITATIONS
[ 1 The above numbered solicitation is amended as set forth in Item 14. The hour and date specified for receipt of Offers [ 1 is extended, [ 1 is not extended.
Offers must acknowledge receipt of this amendment prior to the hour and date specified in the solicitation or as amended, by one of the following methods:
(a) By completing Items 8 and 15, and returning             copies of the amendment; (b) By acknowledging receipt of this amendment on each copy of the offer submitted; or
(c) By separate letter or telegram which includes a reference to the solicitation and amendment numbers. FAILURE OF YOUR ACKNOWLEDGMENT TO BE RECEIVED AT THE
PLACE DESIGNATED FOR THE RECEIPT OF OFFERS PRIOR TO THE HOUR AND DATE SPECIFIED MAY RESULT IN REJECTION OF YOUR OFFER. If by virtue of this
amendment you desire to change an offer already submitted, such change may be made by telegram or letter, provided each telegram or letter makes reference to the
solicitation and this amendment, and is received prior to the opening hour and date specified.
 12. ACCOUNTING AND APPROPRIATION DATA (If required)



                                    13. THIS ITEM APPLIES ONLY TO MODIFICATIONS OF CONTRACTS/ORDERS,
                                        IT MODIFIES THE CONTRACT/ORDER NO. AS DESCRIBED IN ITEM 14.
           A. THIS CHANGE ORDER IS ISSUED PURSUANT TO: (Specify authority) THE CHANGES SET FORTH IN ITEM 14 ARE MADE IN THE
             CONTRACT ORDER NO. IN ITEM 10A.

           B. THE ABOVE NUMBERED CONTRACT/ORDER IS MODIFIED TO REFLECT THE ADMINISTRATIVE CHANGES (such as changes in paying
             office, appropriation da~e, etc.) SET FORTH IN ITEM 14, PURSUANT TO THE AUTHORITY OF FAR 43.1 03(b} .

  ../'     C. THIS SUPPLEMENTAL AGREEMENT IS ENTERED INTO PURSUANT TO AUTHORITY OF:
                       FAR 43.103(a)
           D. OTHER (Specify type of modification and authority)


 E. IMPORTANT: Contractor [] is not, [XXX] is required to sign this docurnent and return                                                 _ copies to the issuing office.

 14. DESCRIPTION OF AMENDMENT/MODIFICATION (Organized by UCF section headings, including solicitation/contract subject matter where feasible.)



 The above reference contract is herby modified per the attached.




 Except as provided herein, all terms and conditions of the document referenced in Item 9A or 10A, as heretofore changed, remains unchanged and in full force and effect.
 15A. NAME AND TITLE OF SIGNER (Type or print)                                                      16A. NAME AND TITLE OF CONTRACTING OFFICER (Type or print)
                                                                                                   HOWARD L. INNIS or MISTY J. CLAYPOLE
                                                                                                   CONTRACTING OFFICER
  15B. CONTRACTOR/OFFEROR                                       15C. DATE SIGNED                   16B. UNITED 'STATES OF AMERICA                                16C. DATE SIGNED

                                                                                                   BY
 (Signature of person authorized to sign)                                                                       (Signature of Contracting Officer)

NSN 7540-01-1 52-8070                                                                                                                                STANDARD FORM 30 (REV. 10-83)
PREVIOUS EDITION UNUSABLE




                                                                                                A-3
Purpose of this Modification

(1) Change the title of Section 8.3.1.1

        From ','Applying ODCs and Handling Rates"
        To "Applying ODCs and Handling Rates for Time and Materials (T&M) and Labor Hour
        (L-H) task orders"

(2) Clarify how to price fixed price task orders

        The ODe Modification (effective May 6,2005) never applied to Fixed Price task orders. Fixed
        Price task orders are to be priced in accordance with FAR Subpart 15.4, Pricing and FAR Subpart
        16.2, Fixed-Price Contracts.

(3) Add Misty J. Claypole as a cO-Procuring Contracting Officer (PCO)


(4) Replace Section G.4 Delegation of ordering authority with the following:

        G.4 Delegation of ordering authority

                        a. Only warranted, federal government contracting officers may issue orders, and
        to so they require a delegation of ordering authority. In order to request delegation of ordering
        authority, submit the following to 8a@gsa.gov, !loward.innis@gsa.gov, or
        misty.claypole@gsa.gov:
                         Agency name
                         Agency full address
                         Contracting Officer Phone
                         Contracting Officer Fax
                         Contracting Officer email
                         A copy of Contracting Officer's warrant

                      b. All orders are subject to the terms and conditions of the original contract, as
       amended/modified. In the event of a conflict between an order and the contract, the contract will
       take precedence.

                       c. All costs associated with preparation, pr~sentation and/or discussion of the
       Contractor's order proposal will be at the Contractor's expense and will not be directly charged to
       the Government.

                         d.    No work will be performed and no payment will be made except as authorized
       by an Order.

                      e. A Order will be considered to be issued in accordance with Clause 52.216-18
       - Ordering (OCT 1995) - Section 1.3.

                         f. An order can only be issued by a delegated, warranted contracting officer.

                         g. Orders issued under this contract will not be announced in the FEDBIZOPPS.

                          h. Any required change to a previously issued order will be issued in Jvriting by the
       contracting offic(!r for the order.




                                                         A-4
       Orders may be awarded on a direct order basis up to $3 million based upon self-marketing or past
       performance. The Ordering Contracting Officer shall make a determination of price
       reasonableness for each order.




       All orders expected to exceed $3 Million shall provide for fair opportunity among all contract
       holders within the applicable Functional Area. }\II the necessary information (Le. Bill of Materials,
       Statement of Work, Evaluation Criteria, etc.) shall be disseminated in order to afford all GWAC
       contract holders within the required functional area fair opportunity to receive order award.

       All contract holders must register in IT Solutions at http://it-solutions.gsa.gov.ltis the
       responsibility of the contract holder to maintain current and accurate information in their
       IT Solutions profile for the distribution of RFQ postings.


(5) All other terms and conditions remain unchanged.




                                                      A-5
                                              Recommendation Number              Proposed Completion Date
I Report Number/Title
 IA 10 15 10 1211 13 IQ 16 IP 10 17 10 10/1        10/21                                10 191310 I 0/71

 Recommendation

 2. We recommend that the Center take corrective           ~ction   to address the out of scope task orders
 identified in our review.


 Action to be Taken Step by               Supporting Documentation to            Documentation will be Sent
 Step                                     be sent To BECA                        Last Day of

 1. Contracts Division Director           There is no supporting
 and Ordering Contracting                 documentation, occurred                Completed
 Officer have agreed that the             telephonicall y
 next option will not be
 exercised so that an orderly
 transition to a different contract
 vehicle can be made.


 2. This task has expired and is          OF347 attached with Period of          Attached with Action plan.
 no longer on 8(a) STARS.                 Performance annotated




                                                            A-6
                                                                         .JJ1                                                                                               (JJ--.;...~-L---
__,_~                                            O_R_D_E_R_F_O_R_S_U_P_P_L_I_ES_O_R_S_E_RV_IC.....:·E.;:;..:S:....-                                                        ---JI   PAGE OF PAGES
IMPORTANT: Mark all packages and papers with contract and/or order numbers.                                                                                                   1    1         1           18
1. DATE OF ORDER           2. CONTRACT NO. (If any)                                              3. ORDER NO.                                                   4. REQUISITION/REFERENCE NO.
                          GS-06F-0410Z
 09/30/2005                                                                                      HHSM-SOO-2005-00191G                                           765-5-652502

5. ISSUING OFFICE (Address correspondence to)                                                              6. SHIP TO: (Consignee and address, ZIP Code)
 CMS,OAGM,AGG,DBSC                                                                                        Not Applicable
 7500 SECURITY BLVD., MS: C2-21-15
 BALTIMORE MD 21244-1850




7. TO: CONTRACTOR (Name, address and ZIP Code)                                                             8. TYPE OF ORDER
Z-Tech Corporation                                                                                        C: A. PURCHASE· Reference your
Attn: VerI Zanders                                                                                       • Please furnish the following on the terms and conditions specified on both sides of this
                                                                                                           order and on the attached sheets, if any, including delivery as indicated. This purchase
1803 Research Boulevard
                                                                                                           is negotiated under authority of:
Suite 301
Rockville MD 20850                                                                                        [K    8. DELIVERY
                                                                                                            Except for billing instructions on the reverse, this delivery order is ~ubjecl to
                                                                                                            instructions contained on this side only of this form and is issued subject·to the terms
                                                                                                            and conditions of the above numbered contract.
9. ACCOUNTING AND APPROPRIATION DATA                                                    10. REQUISITIONING OFFICE

754/50S11,55998626,252Z                                                                  CENTER FOR BENEFICIARY CHOICES
                                                                                         11. BUSINESS CLASSIFICATION

                                                                                         IR SMALL           I        OTHER THAN SMALL              [KJ   DISADVANTAGED              II WOMEN-OWNED
12. F.O.B. POINT                                            14. GOVERNMENT B/l NO.                                   15. DELIVER TO F.O.B. POINT               16. DISCOUNT TERMS
                                                                                                                     ON OR BEFORE (Date)
Destination                                                                                                                                                                            Net 30
13. PLACE OF INSPECTION AND ACCEPTANCE
                                                                                                                     09/29/2006

Destination
                                                                                  17. SCHEDULE (See reverse for Rejections)

 ITEM NO.                               SUPPLIES OR SERVICES                                             ()UANTITY UNIT                UNIT                       AMOUNT                           QUANTITY
                                                      (b)                                                ORDERED (d)                  PRICE                         (f)                            ACCEPTED
     (a)
                                                                                                               (c)                      (e)                                                             (g)

                 Tax 1D Number:
                 DUNS Number:
                 Pursuant to the terms and conditions of
                 Contract No. GS-06F-0410Z the Contractor
                 shall provide the services described in the
                 attached Statment of Work (15 pages) for
                 the T&M rates on the attached rate sheet (1
                 page) .
                 Period of Performance: 09/30/2005 to
                 09/29/2006

0001             Auto enrollments of Full-Benefit Dual                                                                                                      1,595,808.00
                 Continued ...
                                                                            19. GROSS SHIPPING WEIGHT                       20. INVOICE NO.                                                        17(h). TOT
  SEE BILLING      18. SHIPPING POINT
 INSTRUCTIONS
                                                                                                                                                                                                   (Cont pages)
  ON REVERSE
                                                                                                                                                             $1,595,808.00

                   21. MAil INVOICE TO: (Include ZIP Code)
                   DHHS,CMS,OFM,FSG
                   Div. of Financial Operations,
                   P.O. Box 7520
                   Baltimore MD 21207-0520
                                                                                                                                                                                                 17(i). GRAND
                                                                                                                                                                                                 TOTAL
                                                                                                                                                             $1,595,808.00

22. UNITED STATES OF AMERICA                                                                               23. NAME (Typed)

                                                                                                                DEBRA A. HOFFMAN
8Y (Signature)
                                                                                                           TITLE: CONTRACTING/ORDERING OFFICER

NSN 7540·01-152·8083                                                                        50347·101                                                            OPTIONAL FORM 347 (10.83)
                                                                                                                                                                 Prescribed by GSA, FAR (48 CFR) 53.213(e)




                                                                                                        A-7
                                                   Recommendation Number     Proposed Completion Date
[ Report Number/Title
 A 10 15 10 12/1 13   IQ 16 IP 10 17 /0 10/1            10 13 I                   111 2131010/61

 Recommendation

 3. Focus task order reviews on the highest risk orders (task orders greater than $3 million); task orders
 f~r the largest vendors and largest clients: and task orlderswith new stakeholders    .

 Action to be Taken Step by                    Supporting Documentation to   Documentation will be Sent
 Step                                          be sent To BECA.              Last Day of

 1. The center has created a                   Documentation attached        Completed
 systematic statement of work
 review process prior to issuance
 of orders which allows bet~er
 control over task order
 management for high risk and
 high dollar task orders

 2. The OMB Executive Agent                    QAP is attached see page 9    Completed
 Designation required a Quality
 Assurance Plan which included
 a measure to review 95-99% of
 orders over $100,000 within 60
 days ~fnotice of issuance of the
 order.




                                                                  A-8
                                                                General Services Administration
                                                                  Small Business GWAC Center
                                                                             Contracts Division



 December 28,2005


 MEMORANDUM FOR 6FGC




 FROM:               Matt T. Verhulst
                                      ~
                     Director, Contracts Division


   Statement of Work (SOW) review meetings by committee shall be held for all prospecti.ve,
   a/kJa "advance" or "up front", SOWs this Division provides advisory technical and/or bU'siness
   feedback on. Currently the review meetings are ·held twice a week and are mandatory for all
   Division associates to attend and participate. The meetings are regularly scheduled as one-
'. hour sessions held on Tuesdays at 9:00 AM and 'Thursdays at 1:00 PM. A written cO'py of
. each SOW and the team's consensus findings shall be maintained in the master SOW binder,
   with each year's binder(s) being centrally maintained. Feedback to parties requesting this
   Division's feedback shall be returned on GSA letterhead and shall include not only SOW
   specific consultations, but also a list of our standard best practice reminders. The party
   responsible for the feedback is the contracting officer for the applicable GWAC.

SOW meetings regarding issl:Jed task orders shall consist of those that are deemed
questionable by the initial reviewer. These meetings coincide with the advance SOW reviews.
The initial reviewer is charged with completing anej retaining the record of the team's findings
on each SOW reviewed. Those records shall be centrally maintained alongside the advance
SOW records in yearly binders.




                                                                     U.S. General Services Administration
                                                                     1500 East Bannister Road
                                                                     Kansas Ciiy, iviO 64 i 3 i
                                                                                    J


                                                                     www,gsa.gov




                                                A-9
                                                                           (o~) I b



                       Business Clearance Panel
                        Pre-Award SOW Review

Date Reviewed:- - - - - - - - - - - - - - - - - - - - - - -

SBG~ACCO(whoreceivedreviewrequest):~                                           _

Project Name:- - - - - - - - - - - - - - - - - - - - - - - -

Project Number:                                                                _

Agen~y:--------------------------
Contracting Officer:                                                               _

PointofContact(~otherthan       CO):                                          ~


Government's Estimated Task Order Amount:
                                                 ------------
Acquisition History Received (circle)?           YES          NO
      ATTACH to review form

GWAC (circle): 8(a) STARS          HUBZone       VETS         Alliant SB

NAICS identified:- - - - - - - - - - - - - - - - - - - - - - -

Scope appropriate for NAICS (circle)?            YES          NO
      If no, which NAICS is better fit?

ODCs balance:
     Dollar Amount:- - - - - - _ . _ - - - - - - - - - - - -
     PercentageofestimatedTaskOrde~_~~~~~      _ _~_~~

Services v. Products:
       Percentage services:                                                     _
       Percentage product:                  .                                  _

Is CO delegated (circle)?                 YES           NO

Proposed order type (circle):      FP            Labor Hour          T&M

COMMENTS/RECOMMENDATIONS:




                                          A-10
                          Business Clearance Panel
                          Post-Award SOW Review

Date Reviewed:
                 -----------------------
GWAC (circle): 8(a) STARS          HUBZone         VETS         Alliant S8

Task Order Number:
                       --------------------
Date Awarded:- - - - - - - - - ' - - - - - - - - - - - - -

Industry Partner contract number:- - - - - - - - - - - - - - - - -

Ordering Agency:                                                              _

       If FTS, Client Agency:              .                                      _

Contracting Officer:                                                                  _

       Is CO delegated (circle)?                   YES          NO

Task Order Amount:- - - - - - - - - - - - - - - - - - - - -

       If STARS, over $3 Million fair opportunity (circle)?     YES          NO

Order type (circle): FP            Labor Hour             T&M

NAICS identified:- - - - - - - - - - - - - - - - - - - - - - -

Scope appropriate for NAleS (circle)?              YES          NO
      If no, which NAleS is better fit?

ODCs balance:
     Dollar Amount:- - - - - - - - - - - - - - - - - - - - -
     Percentage of estimated TaskOrde~                ~_ _


Services v. Products:
       Percentage services:                                                        _
       Percentage product:                     ,                                  _

Pass through indicators:                       ,                              _




COMMENTS/RECOMMENDATIONS (use back side if necessary):




                                          A-11
                                                                      GSA Heartland Region

DATE

RE: Project NameINumber

Dear OCO:

Thank you for your interest in using the8(a) STA:RSIHUBZoneNETS OWAC. The Small
Business GWAC Center offers up front business clearance in pursuit of acquisition excellence.
NOTE: This review is a business clearance N9T a legal review. Please follow your internal
agency policy regarding review levels.

The contracting staff has reviewed your statement of work. The following are the
comments/recommendations of the staff:

       •   Point A
       •   Point B
       •   Point C
       •   Point D
       •   Etc

Again, thank you for choosing the 8(a) STARSIHUBZoneNETS GWAC for you information
technology acquisition. Weare available for any questions that you may have throughout the
procurement process.



Regards,


Contracting Officer
GSA Small Business GWAC Center.




                                                          u.S. General Services Administration
                                                          1500 East Bannister Road
                                                          Kansas City, MO 64131-3088
                                                          www.gsa.gov




                                              A-12
    OCT "5 L'O05


Mr. Robert A.Burton
Associate Administrator
Office of Federal Procurement Policy
New Executive Building
725 17th Street
Room 9013
Washington, DC 20503

Dear Mr. Burton:

This is in response to the letter from the Honorable ~Joshua B. Bolten dated JlJly 5, 2005,
requesting a quality assurance plan for our government~wide acquisition contracts (GWAC's)w I
arn pleased to report that ·in drafting the enclosed plan, the General Services Administration has
addressed the issues comprehensively) from the standpoint of appropriately rllanaging the
contract vehicles themse'ves and the assisted serviGe business~

GSA is working towards mana.ging its portfolio of G\JVAC's ·as a single program. Currently, the
program is managed by the Federal Supply Service" Office of Commercial Acqu·isition and
itnplemented through three· GWAC Centers~ Under the ·GSA reorganization the program will
transition to the Federal Acquisition Service (FAS), ()ffice of Integrated Technology Services~

                                                                 at
GWAC Center responsibilities include award and administration the contract level, provide
customer training, and programmatic oversight Client Support Center (eSC) responsibilities in
service delivery include helping agencies review and select appropriateacqu·isition vehicles,
requirement definition. project management, acquisition planning and execution, financial
management, and implementation,

GSA looks forwarding to ·continuing to w·ork with OMS and understands the importance of its
design.ationas an executive agent and strongly emphasizes appropriate use of the GWAC~s>
Should yo~ have any questions please contact Mr. ~Jeff Koses, Acting Assistant Commissioner
for the Office of Commercial, on (703) 605-2855.




Deidre A. Lee
Assistant Commissioner
for Integrated Technology Services

Enclosure

                                                                      L .S. Gencraf Services Adtninistration
                                                                      10304 Eaton Place-
                                                                      Fairfnx, \' A 22030..2213
                                                                       \V\V\v.. gsu. gov




                                                 A-13
           General Services Administration Executive Agent Quality Assurance Plan



1. Training of Executive Agent 8taff - The quality assurance plan (QAP) should describe the
   training provided to contracting, project, and any other officials of the executive agent that
   work with· customers in developing, placing, and administering orders. The plan should
   address how training is provided (e.g., coursework, mentoring) and how implementation is
   tracked.

   One of the General Services Administration's (GSA's) strengths has been developing and
   ensuring contracting personnel have access to high-quality training. In developing new
   training, GSA will ensure that it follows the provisions of OFFP Policy Letter 05-01 ,
   Developing ·and Managing the Acquisition Contracting· Officer Warrant Program (COWP):

   GSA's COWP establishes criteria for the selection, appointment, and termination of
   appointment of GSA Contracting Officer's (CO's). It ensures that GSA has qualified
   individuals as CO's who' meet the organization's needs for contracting authority. The
   COWP establishes acquisition training requirernents for all contracting personnel. All
   contracting personnel complete a minimum of 40 hours of contract related training annually.
   Training is a vital tool in improving the quality of our contracts and allows our associates to
   fill skill gaps, which helps ensure a highly profiGient and knowledgeable contracting
   workforce.

   Currently, GSA monitors COWP requirements to 'ensure that warranted CO's complete all
   required training. Periodic revie~s.by management in .accordance with the associates'
   performance review serves as an-oversight to ensure compliance with regulations and
   procedures. All contracting personnel in the government-wide acquisition contract (GWAC)
   centers have met the requirements of theCOWP·.

  For assisted services, the Federal Technolgy Service (FTS), Office of the Acquisition
  monitors training compliance information for all FTS contracting staff. Mandatory training is
  required to be eligible for the 1102 contracting series and up to 40 hours of continuing
  education is required annually depending on the type of warranted held by an individual.
  Training requirements are reviewed prior to issuance of a CO Warrant.

  As part of its quality assurance plan, GSA emphasizes individual accountability through
  Individual Development Plans (lOP's).

  At the beginning of the performance period an IDP is completed for each employee.
  Contracting and non-contracting staff receive counseling on career development and the
  appropriate training. Managers record the objectives of the training as weI.' as monitor and
  ensure completion of training objectives. Associates participate in various forms of training,
  such 'as conferences, online training, and seminars. Training content includes recent
  acquisition changes.




                                                A-14
       GSA encourages both its GWAC Center associates and its assisted service associates to
       pursue Project Management Professional Certification through the Project Management
       Institute or to take project management courses through George Washington University.
        As the Federal Acquisition Institute (FAI) and Defense AcquisitionUniversity (DAU) develop
       and define Project Manage,ment competencies, GSA will ensure that its training provides the
       same competencies.                                          '

       Other Training:

       GSA also strongly encourages that its Project Managers (PM's) receive training. Examples
       of the training available to GSA P~'s include:                           .

    •     Contracting Officer Representative (COR) -rraining - Initial and Refresher training
          through the FAI - online training
    •    Technical Evaluation Board (TEB) training .- in-house seminar format
    •    Information security, physical security, management controls, and ethics training - online
         GSA training
    •    Task Order preparation training for PM's - in-house seminar format originally and now
         available on video/slides
    •    Seminars provided on GWAC's, Section 508, Multiple Awards Schedules (MAS)
         contracts, GAO Protests, Smart-Buy, and other topics of interest to FTS/fTS project and
         contracting staff - in-house seminar format
   •     Fede~af Appropriations Law - formal classroom training
   •     Oral and Written communications pkills'- fc>rmal classroom training
   •     Acquisition staff.and more experienced CO's/PM's continuously provide mentoring to
         other eO's/PM's
   •     George Washington University Project Management Certification program - formal
         classroom training                                                 ,
   •     Project Management Institute'(PMI) certification - many FTS PM's have obtained or
         continue to pursue Project Manager Professional (PMP) certification from PMI


2. Customer Training - The plan should describe the training offered to help customers: (i) to
   decide if use of a GWAC makes sense and (ij) take maximum advantage of the GWAC as
   an acquisition tool (both for'effective and efficient buying). The plan should delineate
   between mandatory and optional training and c3ny prerequisite skills that customers must
   demonstrate before being allowed to obligate funds under the GWAC.

   Bringing all of the Integrated Technology offerings within one portfolio will enable GSA to
   help the customer identify the solution best fitting their needs: MAS, GWAC, or other
   vehicle, self-service or assisted, and work towards strategically sourcing those solutions.

   GSA recognizes that self-service and assisted service customers may have different training
   needs, and is able to support these differences. Before customers are granted a delegation
   to permit direct ordering, they must complete rnandatory GWAC training. The training is
   designed to ensure the participant's knowledge of GWAC vehicles and their proper use.




                                                2



                                                 A-15
 The training varies in degree of complexity and is customized to fit customer'.s individual
 needs. The training can be delivered on-line, in person, or telephonically. The training is
 designed to help ensure that the customer understands whether a GWAC is an effective
 strategy for the specific buy and helps them understand the difference between GWAC's

 GSA offers non-mandatory training. As part of its responsibilities associated with managing
 the GWAC program, GSA has long placed emphasis on developing high-quality training
 courses. It has awarded a task order to develop an 8(a) STARS on-line training class and
 annticipates developing courses for other GWAC's. As discussed above, long term plans
 include developing courses specific to each GWAC. Because developing regular
 courseware is time-consuming, GSA has concentrated on developing seminars as an
 interim measure. The following two seminars are geared towards CO's and PM's to help
 them understand the differences between MAS and GWAC's amongst GWAC's, and to
 identify the relative advantages of each.

    •   GWAC Part 1 serves as an introduction to GWAC. This course introduces
        participants to the GWAC Program Offices that manage the contracts. It presents a
        description of GWAC, Federal Acquisitic>n Regulations (FAR) associated with using
        GWAC, OMS Requirements, the differences from Schedules, and an introduction to
        the ordering process.

    •   GWAC Part 2 is a course that concentrates on individual contracts and requires the
        participant to have an advanced knowledge of contracting. This training provides
        more in-depth material on each specific GWAC and the ordering specifics unique to
        that contract. Presenters conduct discussions on acquisition related concerns and
        trends as they relate to GWAC.

  For assisted services, FTS works closely with customers to determine the optimal solution
  for their requirements. As part of the customer solution determination process, FTS reviews
. GWAC's and other contract vehicle options with the customer and provides pros/cons of
  each viable option. The customer must have a bona fide need and provide specific
  information about funds being used for all orders. Client Support Centers (CSC's) may
  utilize websites to provide customers with an overview of the services offered, provide one-
  on-one training on available contract vehicles, and utilize customer questionnaires to obtain
  agency acquisition information.

 esc's providing assisted services offer trainin~J for their customers to enhance their
 knowledge of the types of contract vehicles and contract structures available and the GSA
 acquisition process. Some of the types of training provided include:

    •   Technical Evaluation Board (TEB) train~ng - in-house seminar format, provided to
        both FTS and customer TES members before the TEB convenes
    •   Cost-Plus-Award-Fee Determination Board training (performance based) - in-house
        seminar format, provide to both FTS and customer TB members before Award Fee
        Board meets




                                             3


                                              A-16
       •    FTS customer initiation includes many presentations that detail FTS-customer
            operations including business processes, quality and management controls,
            acquisition procedures, and post-award project management processes
       •    Customer conferences and on-line tutorials may be utilized to inform customers on
           -vehicles and how to use them


3. Task Order Development and Placement - The Quality Assurance Plan (QAP) should
   address the specific management controls in place (e.g., peerreview, legal review,
   customer agency program review) that are used to ensure orders are properly placed in
   accordance with applicable laws, regulations, and policies. For example, the plan should
   address how the agency ensures: (i) orders are within the scope of the GWAC, (ii)
   competition requirements are followed, (iii) any customer-unique requirements are met, (iv)
   required justifications are completed, and (v) funding is applied in accordance with
   appropriation limitations. The plan should identify how each of these issues is addressed for
   both direct ordering and assisted ordering, including any established review thresholds.

   In using the GWAC's, customer agencies have a choice. They can request a delegation to
   place and administer their own orders through one of the GWAC Centers, or they can obtain
   assisted services through GSA. GSA does not grant a prospective customer a delegation
   until the agency is satisfied that the customer can use the GWAC appropriately. The
   following procedures apply before delegations are approved:

   •   The customer agency must provide the GWAC Center a copy of the CO's warrant.

   •   The customer agency must enter into a Memorandum of Understanding with GSA.
       Amongst other requirements, the MOU establishes operational controls and procedures
       for the agency to follow.

   •   Each individual CO placing orders must complete a mandatory GWAC training course
       discussed below. They may also attend various non-mandatory seminars and pursue
       other specific training.

   Direct Ordering Authority:

   When agencies are delegated direct ordering authority, they are responsible for using the
   contract appropriately including follOWing competition requirements, funding limitations, and
   utilizing qualified oversight staff. GSA recognizes that it has a role to play in helping
   agencies use the GWAC's properly. It takes a number of steps to aggressively promote the
   fair opportunity requirements.

   First, GSA strongly encourages agencies to order through e-Buy, GSA's Electronic Request
   for Quote (RFQ) system. e-Buy is designed to facilitate the request for and submission of
   quotes or proposals while providing greater transparency to the process. Originally built for
   MAS buys, e-Buy was expanded in 2005 to facilitate GWAC purchases. Agencies using e-
   Buy are assured that they have complied with the fair opportunity requirements. e-Buy




                                              4


                                               A-17
automatically sends the RFQ to all contractors in the functional area covered by the
purchase. e-Buy also provides additional safeguards to the program. Before GWAC RFQ's
can be posted, the buyer must certify that they have a delegation of authority in place and
have completed the necessary training. The GWAC Centers receive an automatic report of
each GWAC posted, so that they can follow up on the details.

Besides' the e-Buy reports, the GWAC Centers also retrieve data on all orders placed
against GWAC's from various avenues such as, the Information Technology Solutions Shop
(ITSS), Contractors Monthly Status Reports, and customer reports. GSA further
strengthened its oversight by delegating authority for fee management to the Contract
Management Center. This year GSA is implerrlenting electronic contractor reporting of all
task orders. GWAC contractors will go to the (3SA's Vendor Support Center website at
VSC.·GSA.GOV to report sales against each and every order placed.

Prov.iding e-Buy, aggress.ively reviewing orders placed, and providing oversight of contractor
actions gives GSA an array of tools to manage appropriate use of delegated direct ord~ring
authority.

For assisted services, the entire ordering process from customer requirement development
and funds receipt, through contract award and administration, to contract and project
closeout is reviewed by multiple levels. FTS guidelines and specific thresholds define the
level of review individual contract actions must have in both the pre-solicitation and pre-
award phases. Reviews may include the contracting staff, Director/Assistant
Commissioner/Commissioner, GSA Legal Counsel, GSA Small Business Utilization office,
and GSA competition advocate.

Specific management controls include:

   •   Prior to analyzing the FTS customer requirements and preparing acquisition         .
       documentation, the customer must dernonstrate a bona fide need, provide the initial
       scope of work to be accomplished, and specific information about funds being used
       for the order. The FTS customer must verify that the funds are legally available for
       the purpose of the acquisition activities to be performed by FTS.
   •   FTS PM's prepare acquisition strategies for task orders with an estimated value
       under $100,000. The acquisition strategy is a concise document that describes the
       requirement, estimated cost, schedule, recommended contract vehicle, and task
       order monitoring requirements.
   •   For task orders with an estimated ValUE! over $100,000, FTS PM's initiate more
       formal acquisition plans. Depending on the acquisition type and dollar estimate, FTS
       PM's prepare either a limited acquisitiofl plan or a comprehensive acquisition plan.
       FTS PM's .review the contract scope and structure prior to preparing their respective
       acquisition plan. ~cquisitions plans must meet FAR requirements for content and
       include: acquisition background and objectives; plan of action, e.g., use of GWAC's,
       non-GSA GWAC's, GSA GWAC's (e.g., Millennia, ANSWER), MAS, Single Agency,
       Directed 8(a), or Full and Open; and Additional Considerations. Acquisition plans




                                           5


                                            A-18
            must be reviewed and approved by an FTS Peer Reviewer; applicable Group
            Manager; and the CO prior to issuanQe.
       •    The CO verifies that the requirement is within the scope of the basic contract. For
            Multiple Award Delivery Orders contracts (e.g., Millennia), the CO will provide each
            contract awardee with a fair opportunity to be considered for each order. For MAS
            requirements, acquisition personnel ensure adequate competition is sought by either
            electronically issuing the solicitation to industry partners within an identified service
            area (SIN) via e-Buy or providing the s()licitation to multiple vendors with the intent to
            receive a minimum of three bids.
       •    New acquisitions over $5 million in total value or task order modifications that exceed
            5 percent of the total task order. value rnust be reviewed and approved by a esc
            Contract Review Panel (CRP). esc's may use three types of CRP sessions: (i)
           acquisition plan session, where the acquisition plan and overall strategy is reviewed
           and approved; (ii) a pre-solicitation session where applica'ble acquisition
           documentation (e.g., task order request or RFP, IGCE, Technical Evaluation Plan) is
           reviewed; and (iii) a pre-award session where the TEB chairperson presents the TEB
           report and any other relevant documentation to the CRP. For complex technical
           and/or high profile acquisitions that require specialized acquisition assistance early in
           the project, FTS PM's may request an ;advice and counsel CRP session to discuss
           pppropriate acquisition approaches and strategies prior to developing any acquisition
           documentation. The advantage of this type of CRP session is having contracting .
           associates, GSA Legal Counsel, and technical personnel together at one time, early
           in the acquisition life cycle to identify a proper acquisition approach for high profile
           acquisitions.
       •   For FTS acquisitions tha~ are within CRP dollar thresholds, but are sent to an
           external contacting partner (outside G~)A) for action and award, FTS reviews and
           approves all acquisitions plans and acquisition documentation prior to being
           forwarded to the external contracting partner.

   Each esc undertakes regular reviews of randomly chosen task orders to ensure proper
   procedures are being followed and appropriate documentation incorporated into the project
   and contract folders. In addition, CSC's may conduct project reviews (on-site 0r via
   teleconference) between PM's, customers, and industry partners to ensure task activities
   are being completed in accordance with the c()ntract expectations.

4. Order Implement~tion - The QAP should address how contractor performance is
   administered. The QAP should clearly delineate both the agency's role and the customer's
   role in contract administration, especially for services over $100,000 and tasks issued on a
   time and materials basis. For example, the QAP should address if the agency requires the
   customer to assign a COR to monitor the contractor's performance and, if so: (i) who
   designates the COR, (ii) who outlines the COR's duties, and (iii) who ensures the COR has
   the relevant expertise and training.

   For direct order tasks, GSA does not normally have a substantive role in order
   administration. Instead, order administration is normally the responsibility of the ordering
   agency. In delegating authority, GSA charges the agency.CO with the following specific




                                                 6


                                                 A-19
resp~nsibilities ~n accordanc~ with FAR 42.302 and GSAR 542.302. The agency CO, in
turn, IS responsible for ensuring that the COR has relevant experience and training. In
delegating direct ordering authority, GSA requires .that the ordering agency CO:

    •     Assign Contracting Officer's Technical Representative (COTR) responsibilities and
          work closely with the COTR in technical contract administration. Assure that the
          COTR is apprised of his/her specific responsibilities and authority, as well as
          limitations thereof. Copies qf. the letter must be provided to the Procuring
          Contracting Officer (PCO) so that the F)eO may advise the contractor.
   •      Place all orders under the contract that are determined to be within the scope of the
          contract and your delegation. All orders shall be administered by the ordering
          agency CO.
   •      Terminate individual orders for convenience or default in accordance with the terms
          and conditions of the contract.
   •      Respond to any Freedom of Information Act (FOIA) requests in relation to delivery
          orders and applicable post-award contract actions.
   •     Serve as the central point for coordinating liaison with the contractor and with
         ordering agencies; assist by clarifying contract terms and contractor responsibilities
         or successful contract performance. Provide the contractor and agencies with final
         written interpretations of contr'act terms and conditions.
   •     Assure timely performance of delivery orders and monitor compliance with the terms
         and conditions of the delivery orders under the terms of the contract. Take .
         appropriate action to protect the Government's interests under the terms 9f the
         contract.
   •     Report to the GSA PCO any inadequacies in contract specifications and recommend
         corrective action thereof.
   •     Monitor contractor compliance with EEC) provisions of the contract and resolve
         problems of non-compliance.
   •     Monitor contractor compliance with safety requirements, including'handling of
         hazardous materials. Identify any instances of non-compliance and take appropriate
         action. Conduct follow-up activities to ensure that corrective measures are
         employed.                                     .
   •     Monitor contract expenditures of all delivery orders within your authority, and provide
        .the information as required to the PM.
   •     Prepare findings and furnish to the GSA PCO recommendations thereof relative to
         (a) institution of termination procedures; and (b) any disputes arising under the
         contract. Recommend the issuance of show-cause, cure, and stop-work order               ~
         notices as appropriate. Additionally, issue these instruments when requested by the
         GSA pea.
   •     Approve or disapprove subcontract requests, up to the limitation of your warrant.

When GSA places the order on behalf of another agency, contractor. performance is
monitored through the following contract admin~stration activities:

   •    To properly implement a FTS task order, th'e CO issues a COR designation letter to
        the FTS PM who will manage the task order. The COR designation letter provides




                                             7


                                              A-20
            the COR with specific duties and responsibilities of task order administration. The
            PM must provide ~he CO with written proof of attending COR training (and COR
            refresher training, if applicable) to be designated as the COR.
        •' Under special circumstances (e.g., when' there is significant day-to-day contractor
           on-site monitoring or an OCONUS task order), an individual task order may
           d'esignate (with CO approval) a custolllerpoint-of -contact (POC), sometimes
           referred to as a Technical POC (TPOC) or COTR, to manage day-to-day task order
           responsibilities. However, the custorrler TPOC cannot direct the contractor, alter the
           scope of work, or perform the official duties of the FTS COR. The FTS COR
           manages the task order and has the authority to sign contractor invoices and to
           interface with the contractor.
       • Performance-based task orders have a CO-approved, Quality A,ssurance
           Surveillance Plan (QASP) that the FT:S PM's, the customers, and the contractors use
           during the task order's, period of performance to ensure that work is properly
           performed, on-time, and on budget. The results of the QASP are often used as a
           basis for a contractor's profit (or fee) at the conclusion of an award fee determination
           board (for cost-plus-fixed-fee task orders). The award fee determination board
           meets periodically with the contractor (e.g., once a quarter) to assess contractor
           performance based on pre-determined performance metrics.
       • For Time and Materials (T&M) task orders, FTS COR's monitor task orders vigilantly,
           using earned value management (EVM) in accordance with established rules and'
           business practices, as well as other tools and techniques acquired through PMI-
           certified classes, to provide proper post-award task order management. In addition,
           some T&M task orders have task order specific QAP's and/or QASP's that the FTS
           PM and contractor use to monitor t~sk order performance.

5. Management Review - The agency should periodically review the effectiveness of the QAP.
   The ,plan should explain how effectiveness will be measured and the mechanisms the
   agency will employ if weaknesses are identified. The plan should also identify the steps to
   agency has taken, or will take, to establish a performance rating system that provides
   incentives to contracting officials to exercise due diligence.

   GWAC Centers periodically review their Management Control Plan for determination of
   effectiveness. Annual certification of the Management Control Plan annually is submitted to
   GSA Central Office.

   GSA has established a robust performance nleasurement program,_ based on the principles
   of a balanced scorecard. In 2005, GSA added a new measure pertaining to the quality of
   contracts. Specifically, as part of our efforts to ensure contract quality, GSA implemented a
   five-tier performance appraisal system called APPAS. APPAS has been designed to
   cascade key measures, such as contract quality, from the scorecard workgroup level. to the'
   individual associate level. APPAS is designed so that each individual has his/her own plan.
   In future years, GSA anticipates that refinemE3nts and improvements in APPAS, along with
   strong oversight from the new FAS Acquisition Management Organization will ensure that
   CO's exercise due diligence.




                                               8


                                              A-21
Actions on this front are well underway. In the GWAC Centers, APPAS was designed to
ensure that each CO has a measure about awarding and administering quality contracts
Specifically, GSA GWAC's have a critical element pertaining to timely review of task orders
for scope and other problem areas. The measure is 95-99 percent of orders over $100,000
are reviewed within 60 days of notice of issuance of the task order.

GSA performance meas.uresare guides used by GWAC Centers to determine the
effectiveness of the Management Control Plan. Based on GSA organizational performance
measures, OMS requirements, and acquisition policy the GWAC Centers modify the       "
Management Control Plan to ensure adequate oversight of GWAC vehicles. The following
highlights some requirements of the Management Control Plan:

   •   Inputs OMS data into database applications and into the GWAC Task Order
       Management System.
   •   Conduct annual past performance reviews of task orders issued against the
       contracts through questionnaires from customers.
   •   Follow up with industry partner and customer when poor performance is detected.
   •   Conduct regular program management meetings to keep industry partners informed
       of any chang_es or program issues
   •   Conduct performance reviews as specified by the terms and conditions of the
       contract.

Si'milarly, GSA has used the APPAS system and new management controls, in the assisted
services business to ensure that these CO's exercise due diligence. The information
provided in areas 1-4 of this draft plan descrjbe~ the management controls in place to ensure
quality. When weaknesses are identified, FTS revisits applicable policies and procedures to
revise them as necessary. Managers are required to demonstrate, via quarterly report
and/or quality checklists, that they are reviewing activities for appropriate use of funds,
contracts, and closeout status. Performance rTleaSUre metrics have been implemented to
monitor the quality of the acquisition process, e.g., promoting competition and performance
based contracting.

FTS has developed a five-year Management C·ontrol Plan in accordance with OMS A-123.
FTS has completed the required management controls testing and -annually submits
management assurance statements. FTS will iincorporate QAP effectiveness as part of the
management controls review and update the plan as needed.




                                           9


                                            A-22
I Report Number/Title                                Recommendation Number     Proposed Completion Date
 A   \0 15 \0 12 11 13 IQ 161P 10 17 10 /011              /0 /41                    /01613\0\0/61
 Recommendation

 4. Develop a standardized SOW review process to maintain consistency in scope review.

 Action to be Taken Step by                      Supporting Documentation to   Documentation will be Sent
 Step                                            be sent To BECA               Last Day of

 1. The center has developed a                   Documentation attached        Completed
 standardized pre and post award                 (see documents in 03 (01)
 statement of work review
 process.




IReport Number/Title                                 Recommendation Number     Proposed Completion Date
 AIO   15 /0 12/1   13   /Q'161P 10 17 10 10\1            10/51                     10 161310 /0161
 Recommendation

 5. Develop standardized procedure for timely revie~r and follow-up of subcontracting reports.

 Action to be Taken Step by                      Supporting Documentation to   Documentation will be Sent
 Step                                            be sent To BECJ\              Last Day of

 1. The Center has developed a                   Documentation attached        Completed
 standardized procedure for
 timely review and follow up of
 subcontracting reports




                                                                   A-23
                                                                   (os) 0      I



                       Subcontracting Report Review

1.   Receive subcontracting report from industry partner.
2.   Log receipt of report ,into tracking file for appropriate report period.
3.   Save copy of report to appropriate ftolder on I: drive.
4.   Check report for completeness and accuracy.
        a. Check to ensure all functional areas of have been reported
        b. Check against Lotus Notes database to see if all task orders have
           been reported
        c. Check dollar value reported a.gainst dollar value entered in Lotus
           Notes database.
        d. Make note of:
                i. any task orders reported that are not in the Lotus Notes
                   database
               ii. any dollar value reported that does not match dollar value in
                   Lotus Notes database
5. Contact the industry partner for corrective action, if necessary
        a. Missing task order informatic)n - if not previously reported as
           complete
        b. Modifications to task orders if dollar values do not match up
6. Once report is complete and accurate, make note in tracking file as being
    complete.
7. Enter information submitted in the report to the consolidated master
    subcontracting file for the industry !Jartner.
8. Record any contract that is subcontracting greater than 50% of the work in
    the master file of industry partners subcontracting greater than 50%.
9. PCO will request an action plan frorn the Industry partner to correct the
    percentage of work being subcontracted.
10. The PCO(s) will exercise judgmental discretion in whether a contract
    administration response is required based upon the subcontractor report
    data, and just what the response shCtuld be based upon the nature of the
    findings. The range of response mayt include, but certainly isn't limited too
           1) No further action
           2) Additional fact finding
           3) Place the contractor on a w'atch-list
           4) Communicate concerns to the contractor verbally and
           recorded by report of contact
           5) Communicate concerns to the contractor in writing
           6) Initiate unilateral agency c()ntracting action
           7 Initiate a bilateral contractiIlg action
           8) Decline to exercise a basic contract option period, after which
           no new orders may be issued to the contractor for which
           competition has not already }Jegun. Existing task orders may be




                                      A-24
completed to term, but the ordering contracting officer will need to
exercise judgment and discretion about exercising task order
options."




                          A-25
       IMPLEMENTATION REVIEW OF AWARD FOR STREAMLINED TECHNOLOGY
               ACQUISITION RESOURCES FOR SERVICES (STARS)
              GOVERNMENT-WIDE ACQUISITION CONTRACT (GWAC),
          REPORT NUMBER A050213/Q/6/P07001 DATED DECEMBER 27, 2006
                       ASSIGNMENT NUMBER A090024



                                    REPORT DISTRIBUTION



                                                               Copies

Commissioner, Federal Acquisition Service (Q)                        3

Acting Regional Administrator, Heartland Region (6A)                 1

Internal Control and Audit Division (BEI)                            1

Acting Assistant Inspector General for Auditing (JA, JAO)            2

Assistant Inspector General for Investigations (JI)                  1




                                               B-1

 
